BECKER GALLAGHER
Briefs

and

OoNNA J. WOLF, J.D.
JULIE A. KERSHNER, J.D.

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 copy of the
foregoing Petition for Writ of Certiorari in David
Shinn v. George Russell Kayer, were sent via Next Day
Service to the U.S. Supreme Court, and e-mail to the
following parties listed below, this 15th day of May,
2020:
Jennifer Yolanda Garcia
Assistant Federal Public Defender
FPDAZ-Federal Public Defenders Office
850 W. Adams Street, Suite 201
Phoenix, AZ 85007
(602) 382-2768
Jennifer_Garcia@fd.org
Counsel for Respondent
Lacey Stover Gard
Chief Counsel
Counsel of Record
Office of the Arizona Attorney General
400 W. Congress, Bldg. S-215
Tucson, AZ 85701
(602) 628-6520
lacey .gard@azag.gov
Counsel for Petitioner

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

I

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on May 15, 2020.

Becker Gallagher Legal Pu lishing Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

I 6-

Date:

Jytv l(J.
Notary Public
[seal]

OOao

